                     AUDIT REPORT


                  Audit of NRC’s Laptop Management

                  OIG-08-A-19        September 30, 2008




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                                  Audit of NRC’s Laptop Management



EXECUTIVE SUMMARY

   BACKGROUND

         The U.S. Nuclear Regulatory Commission (NRC) uses more than
         1,550 laptop computers in its day-to-day operations. NRC owns,
         manages, and maintains approximately 85 percent of this laptop
         inventory, or approximately 1,300 laptops. The Office of Information
         Services (OIS), Infrastructure and Computer Operation Division
         (ICOD), is responsible for developing and implementing policies,
         standards, and configurations to maximize functionality, support,
         and security for laptops. Within ICOD, the Network Operations and
         Customer Services Branch is responsible for asset management of
         laptops. Although OIS has responsibility for issuing policies,
         standards, and configurations related to agency-owned laptops,
         individual offices are accountable for the immediate oversight of
         their assigned laptops, including management and maintenance.

   PURPOSE

         The audit objective was to evaluate the management of laptops
         including the effectiveness of NRC’s security policies for laptop
         computers.

   RESULTS IN BRIEF

         The Office of the Inspector General (OIG) identified weaknesses
         pertaining to the implementation and monitoring of laptop security
         controls and other issues of concern pertaining to property
         management practices over agency-owned laptops.

   RECOMMENDATIONS

         This report contains recommendations intended to improve the
         implementation and monitoring of laptop security controls. A
         consolidated list of these recommendations appears in Section VI
         of this report.

   AGENCY COMMENTS

         At a September 23, 2008, exit conference, agency senior managers
         agreed with the report contents and provided editorial suggestions.
         This final report incorporates revisions made, where appropriate, as
         a result of the agency’s suggestions.




                                    i
                              Audit of NRC’s Laptop Management




[Page intentionally left blank.]




               ii
                                        Audit of NRC’s Laptop Management



ABBREVIATIONS AND ACRONYMS

       CTF         Computer Testing Facility

       ICOD        Infrastructure and Computer Operation Division

       ID          identification

       IT          information technology

       LAN         local area network

       MD          Management Directive

       OIG         Office of the Inspector General

       OIS         Office of Information Services

       SPMS        Space and Property Management System




                         iii
                              Audit of NRC’s Laptop Management




[Page intentionally left blank.]




               iv
                                                                  Audit of NRC’s Laptop Management



TABLE OF CONTENTS


        EXECUTIVE SUMMARY..............................................................i

        ABBREVIATIONS AND ACRONYMS ........................................ iii

        I. BACKGROUND .....................................................................1

        II. PURPOSE .............................................................................3

        III. FINDING ................................................................................4

                    SECURITY CONTROLS NOT ADEQUATE .............................. 4

        IV. OBSERVATIONS...................................................................9

        V. AGENCY COMMENTS ........................................................10

        VI. CONSOLIDATED LIST OF RECOMMENDATIONS ............11


        APPENDIX

            SCOPE AND METHODOLOGY...........................................13




                                              v
                              Audit of NRC’s Laptop Management




[Page intentionally left blank.]




               vi
                                                               Audit of NRC’s Laptop Management



I.   BACKGROUND

               The U.S. Nuclear Regulatory Commission (NRC) uses more than
               1,550 laptop computers in its day-to-day operations. NRC owns,
               manages, and maintains approximately 85 percent of this laptop
               inventory, or approximately 1,300 laptops. The remaining laptops
               are leased from a commercial vendor, which manages and
               maintains the machines. This audit report focuses specifically on
               agency-owned laptops and uses the term “laptops” to refer to the
               agency-owned machines.

               The Office of Information Services (OIS), Infrastructure and
               Computer Operations Division (ICOD), is responsible for the
               development, integration, implementation, security, management,
               and support of the agency's information technology (IT)
               infrastructure, which includes laptops. Within ICOD, the Network
               Operations and Customer Services Branch is responsible for asset
               management of laptops.

               A significant percentage of laptops are used by employees who
               engage in teleworking as part of work-related travel or who partake
               in the Flexible Workplace Program1 or Special Circumstances
               Work-At-Home Program.2 Other laptops are used in headquarters,
               regional, and resident inspector offices and the Technical Training
               Center as dockable desktops, classified standalone computers, or
               to support training, testing, software development, forensics, and
               security scans.




1
  The Flexible Workplace Program, also known as Flexiplace, allows employees in eligible
positions to apply for a fixed-schedule telework arrangement. Under Flexiplace, employees may
work at home or at an offsite location for up to 3 days per week with approval of their office
director or regional administrator.
2
  The Special Circumstances Work-At-Home Program is designed to meet temporary needs
resulting from conditions of personal incapacitation, personal hardship, or short-term work
exigencies.


                                              1
                                                                Audit of NRC’s Laptop Management




                               LAPTOPS BY LOCATION
                                           (Total = 1,332)
               800
               700
               600                                                                    HQ
     Number of 500                                                                    Region I
               400                                                                    Region II
      Laptops 300
                                                                                      Region III
               200
               100                                                                    Region IV
                 0                                                                    TTC
                                               Location


                Although OIS has responsibility for issuing policies, standards, and
                configurations related to agency-owned laptops, individual offices
                are accountable for the immediate oversight of their assigned
                laptops, including management and maintenance. Individual office
                oversight of the laptops is a coordinated effort involving the office
                property custodian, IT coordinator, and laptop user designated on
                NRC Form 119, Custodial Receipt for Sensitive Property.
                Specifically, the office property custodian manages and is required
                to track user assignments within the office and record this
                information in the agency’s Space and Property Management
                System (SPMS).3 The office IT coordinator is required to
                coordinate with the Network Operations and Customer Services
                Branch regarding issues such as network access, software
                installation, and computer moves. The IT coordinator also
                approves office laptop acquisitions. Lastly, the individual to whom
                the laptop is assigned is responsible for ensuring that the machine
                is used in accordance with agency and Federal regulations and that
                the laptop itself and the data stored on it are secure.




3
  SPMS, previously known as PASS, is a database that contains records for all sensitive
equipment, regardless of cost, and accountable non-sensitive equipment having an acquisition
cost of at least $500. OIG recommended in audit report OIG-07-A-14, Audit of NRC's Non-
Capitalized Property, dated July 12, 2007, to increase the threshold to $1,000, and the agency
issued guidance to this effect in January 2008.



                                               2
                                                                  Audit of NRC’s Laptop Management



                Individual offices purchase laptops out of their office budgets. The
                cost of each laptop ranges between $459 and $11,598. The overall
                total laptop acquisition cost for the agency is estimated to be
                $2,730,833.4



II.   PURPOSE

                The audit objective was to evaluate the agency’s management of
                laptop computers, including the effectiveness of NRC’s security
                policies for laptops. Appendix A contains information on the audit
                scope and methodology.




4
 The overall total acquisition cost was calculated using the active agency laptop inventory listing
provided in March 2008 by the Office of Administration. The total acquisition cost is a summation
of the purchase price of each agency-owned laptop as listed on the agency’s active inventory and
does not reflect depreciation values.


                                                3
                                                                 Audit of NRC’s Laptop Management



III. FINDING

                More than 1,300 agency-owned laptops are tracked in the agency’s
                Space and Property Management System. After surveying a
                sample of these laptops, OIG identified opportunities for
                improvement in the management of these laptops in the area of
                security controls.

                Addressing these issues will improve the security of NRC’s
                information infrastructure.

        SECURITY CONTROLS NOT ADEQUATE

                Required security controls over laptops were lacking in
                headquarters and each of two regional offices where OIG surveyed
                laptops during this audit. These controls were lacking because the
                agency has not established clear policies and procedures to
                implement security requirements.5 As a result, the agency’s
                laptops are susceptible to viruses and unauthorized use. This
                could result in the inadvertent release of sensitive NRC information
                when laptops are connected to the Internet, or it could pose a threat
                to the secure operation of the agency’s network and information
                when laptops are connected to the NRC local area network (LAN).

                        Requirements

                Federal guidance pertaining to the security and management of
                Government computers, including laptops, requires agencies to
                adopt controls that mitigate the risk inherent in laptop usage.
                Executive Order 131036 prohibits the use, acquisition, reproduction,
                distribution, and transmission of computer software that violates
                applicable copyright law. The Federal Desktop Core Configuration,
                a mandated security configuration, requires frequent password
                changes, no saving of login or password information, and restricted
                administrative rights.7

                Additionally, NRC’s Management Directive and Handbook (MD)
                12.5, NRC Automated Information Security Program, states that
                users shall take appropriate precautions to protect the assets
                (hardware, software, data) provided for their use or to which they


5
  Policies exist for safeguards information and classified laptops, however, they are not easily
understood and cannot be easily implemented.
6
  Executive Order 13103, Computer Software Piracy, Effective Date: September 30, 1998.
7
  Administrative rights means the user has the ability to install software and change the computer
configuration.


                                                4
                                                                Audit of NRC’s Laptop Management



                have been granted access (e.g., workstations, microcomputers,
                local area networks, and associated data). Such precautions
                include that:

                •   Users should install virus-checking software on all mobile
                    computers used to access the NRC LAN and download updates
                    at least weekly so that the virus protection remains current.

                •   Current operating systems are maintained at the most current
                    version.

                •   Systems shall be configured to display a warning banner8 to
                    users upon first accessing NRC automated information
                    resources.

                •   Users shall ensure that the screen-saver password protection
                    option is selected and the wait time is set to 15 minutes.

                •   User identifications (ID) must be issued on a one-to-one basis,
                    and group user IDs are not permitted without special
                    authorization.


                        Inadequate and Inconsistent Security Controls Over
                        Agency-Owned Laptops

                OIG auditors surveyed 49 laptops physically located at
                headquarters, two regional offices, and two resident inspector sites
                to assess their compliance with Federal and agency security
                requirements.




8
  A warning banner is information that appears on a computer screen after an individual logs onto
a computer. This warning alerts the user of their rights and responsibilities when using the
computer and warns against the consequences of unauthorized modification, disclosure, or
destruction of agency property and sensitive information.


                                               5
                                                                                                       Audit of NRC’s Laptop Management




                         Laptops Missing Security Controls
                                                                        (Sample = 49)
                                       40
       Number of
                                       30
      Laptops That
        Lacked                         20
        Security
        Control                        10

                                          0
                                                                           r
                                              tio
                                                  n
                                                          tem anne                    svr         ord         hts       wa
                                                                                                                           re
                                          tec         sys           b            crn          ssw       n rig       oft
                                     p ro           g          n g          d  s         p a        m i           s
                                                 in        rni          cte           or          ad            d
                              v ir
                                  us        rat        wa                                                 ori
                                                                                                             ze
                            d           o pe         o           p rote       l o gin      i cted     t h
                          te       ted             N         w           ua
                                                                            l          str          au
                      tda     tda                       op                          nre          Un
                    Ou       u                         N           d ivid        U
                           O                                    in
                                                           No

                                                                                 Issues

                As the chart shows, the majority of laptops surveyed were not in
                compliance with Federal and agency-defined security controls. In
                fact:

                •           80 percent (39/49) lacked current9 virus protection.

                •           29 percent (14/49) lacked current operating systems.10

                •           67 percent (33/49) lacked warning banners.

                •           67 percent (33/49) lacked password protected screen
                            savers.

                •           63 percent (31/49) lacked individual logins and/or
                            passwords.

                •           53 percent (26/49) lacked restricted administrative rights.

                •           18 percent (9/49) had unauthorized11 software downloaded.

9
  For purposes of this audit, the Office of the Inspector General (OIG) considered virus updates to
be current if they were downloaded within 30 days of OIG’s survey. This is a less stringent
requirement than that advised by NRC; NRC guidance states that updates should occur on a
weekly basis.
10
   The current operating system is Microsoft Windows XP, Service Pack 2.
11
   Unauthorized software is software that was not tested and approved by the Computer Testing
Facility (CTF). A complete listing of tested software and status is available on the CTF Web site
(http://nocsb.nrc.gov/).


                                                                        6
                                                               Audit of NRC’s Laptop Management



               These problems reflect a longstanding agency issue. OIG
               previously reported the inadequacy of security controls over agency
               laptops in OIG audit report 05-A-18, System Evaluation of Security
               Controls For Standalone Personal Computers and Laptops,
               published in September 2005.12 To date, the agency has made
               little progress in improving security controls over laptops. Five of
               the eight recommendations in that report are still open.

                       Agency Policies and Procedures Lacking

               Agency laptops are non-compliant with Federal and agency
               security control requirements because NRC has not yet formalized
               and communicated an agencywide policy for implementing these
               requirements.13 Moreover, at headquarters there is limited means
               to efficiently support the implementation of and adherence to some
               security control requirements.

               In the absence of a formalized policy, some headquarters program
               and regional offices have employed their own discretion in applying
               and monitoring implementation of security controls on laptops. This
               has promoted inconsistency in the application and monitoring of
               security controls within the agency because there is no formalized
               mechanism for assigning users responsibility for implementing
               security controls on laptops. For example, some offices require
               laptops be turned in to the IT coordinator at least once a year for
               updating. Others assume that updating laptops is a user
               responsibility, and provide each user with a user agreement to be
               signed before taking possession of the laptop.

               Furthermore, at headquarters, there is only one secure open port
               available for users to update their laptops with virus protection and
               operating system patches from the Internet. NRC restricts the
               number of open ports to address security risks posed to the NRC
               network. Additionally, laptop users cannot efficiently or effectively
               perform these updates without adequate training on the process. A
               protocol is needed for headquarters users to enable them to quickly
               and easily update the security controls on their laptops.




12
   OIG-05-A-18 only addressed standalone laptops (laptops that are not configured for
connectivity to the NRC LAN).
13
   OIG acknowledges that the agency is currently in the process of developing a “Rules of
Behavior Document,” which is intended to address security controls such as passwords, virus
protection, and software installation. To date, this guidance has not been finalized.


                                              7
                                          Audit of NRC’s Laptop Management



       Impact on Agency Network

Because a formalized agencywide policy governing the application
and monitoring of security controls has not yet been implemented,
agency laptops are not routinely maintained. Consequently, some
laptops have inadequate security controls and are therefore
susceptible to malware, viruses, and the consequences of
unauthorized use. This could result in the inadvertent release of
sensitive NRC information when the laptop is connected to the
Internet, or it could pose a threat to the secure operation of the
agency’s network and the information contained therein when
connected to the NRC LAN.

Additionally, non-compliance with Executive Order 13103 subjects
NRC and its employees and contractors to the consequences of
unauthorized software use, such as fines or imprisonment.

Recommendations

OIG recommends that the Executive Director for Operations:

1. Develop agencywide policy and procedures regarding the
   implementation and monitoring of security controls, especially
   concerning virus protection and operating system updates, for
   all agency-owned laptop computers.

2. Communicate the policy in recommendation 1 to the agency
   when initially complete. Send periodic reminders of the policy
   requirements, as well as detailed instructions on how to fulfill the
   requirements.

3. Provide mandatory formal training to all IT coordinators and
   property custodians on how to update security controls on
   laptops.

4. Develop a process for verifying that all required security controls
   are implemented on agency-owned laptops.

5. Develop a protocol to facilitate the efficient and routine updating
   of agency-owned laptops located at headquarters.




                           8
                                                                   Audit of NRC’s Laptop Management



IV. OBSERVATIONS

                Property Management Observations

                Given the importance of adhering to laptop computer security
                requirements, it is essential to have a reliable property
                management program to facilitate monitoring of compliance with
                agency requirements and industry best practices. During the
                course of fieldwork, OIG auditors observed issues pertaining to
                property management practices. OIG is not making formal
                recommendations to correct these issues; however, these concerns
                warrant management attention.

                         Inadequate Management of Safeguards Hard Drives

                OIG auditors found no instances of non-compliance with agency
                requirements regarding hard drives, such as drives that were not
                locked in a secure container. However, removable safeguards hard
                drives are not tracked as agency inventory in the agency’s property
                management system.14 assigned an NRC property tag, or included
                in the agency’s annual property inventory. Safeguards hard drives
                are small, portable devices that are used to process and store
                safeguards information.15 These drives are not tracked as agency
                inventory because NRC MD 13.1, Property Management, requires
                that only “accountable”16 property be tracked, and the devices do
                not fit the agency’s definition of “accountable” property.

                Consequently, there is the inherent risk of compromising sensitive
                agency information stored on the safeguards hard drives, especially
                if the hard drives are inappropriately disposed of at the end of their
                useful life.




14
    In this context, the term property management system refers to SPMS only; SPMS 4 is the
official agency system, although other inventory systems do exist.
15
   Safeguards information means information not otherwise classified as National Security
Information or Restricted Data which specifically identifies a licensee’s or applicant’s detailed
(1) security measures for the physical protection of special nuclear material, or (2) security
measures for the physical protection and location of certain plant equipment vital to the safety of
production or utilization facilities.
16
   Per MD 13.1, accountable property is any equipment, excluding furniture and supplies, that is
complete in itself, is of a durable nature with an expected life of at least 2 years, and does not
ordinarily lose its identity or become a component of another article, and is not consumed in its
useful life.


                                                 9
                                                Audit of NRC’s Laptop Management



             Inventory Practices Inadequate at Resident Sites and
             Agreement States

       Despite the MD 13.1 requirement that accountable sensitive
       property be physically inventoried every 2 years, laptops located in
       resident inspector offices and Agreement States are not physically
       inspected by regional personnel during the required biennial
       physical inventory. Instead, verification is obtained verbally when
       the designated property custodian calls to confirm a laptop’s
       existence. As a result, laptops could be missing for an extended
       period before being noticed.

             NRC Form 119 Incorrectly Completed

       MD 13.1 requires that NRC Form 119, Custodial Receipt for
       Sensitive Personal Property, be completed for all sensitive property
       to document the assignment and custody of the property. When
       surveying the agency-owned laptop computers, auditors noted
       instances where NRC Form 119s were incorrectly completed. In
       one example, forms were not revised when laptops were
       transferred between staff and/or program offices. In another case,
       the person listed as being the receiver of the property was
       incorrect. In light of recent agency reorganizations and continuing
       office moves, it is prudent to keep accurate records for
       accountability and tracking purposes.

             Contact Information Not Affixed to Agency-Owned Laptops

       More than half (29) of the 49 laptops surveyed did not have contact
       information providing an NRC phone number or return instructions
       affixed to either the laptop or the laptop case. Although this is not
       an agency requirement, 20 surveyed laptops did have a contact
       information sticker. During fieldwork, auditors learned of an
       instance in which a lost laptop was successfully returned because
       the finder contacted the agency via the information provided on the
       contact sticker.


V. AGENCY COMMENTS

       At an exit conference on September 23, 2008, NRC officials agreed
       with the report contents and provided editorial suggestions, which
       OIG incorporated as appropriate.




                                 10
                                                  Audit of NRC’s Laptop Management



VI. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1. Develop agencywide policy and procedures regarding the
           implementation and monitoring of security controls, especially
           concerning virus protection and operating system updates, for
           all agency-owned laptop computers.

        2. Communicate the policy in recommendation 1 to the agency
           when initially complete. Send periodic reminders of the policy
           requirements, as well as detailed instructions on how to fulfill the
           requirements.

        3. Provide mandatory formal training to all IT coordinators and
           property custodians on how to update security controls on
           laptops.

        4. Develop a process for verifying that all required security controls
           are implemented on agency-owned laptops.

        5. Develop a protocol to facilitate the efficient and routine updating
           of agency-owned laptops located at headquarters.




                                   11
                              Audit of NRC’s Laptop Management




[Page intentionally left blank.]




              12
                                               Audit of NRC’s Laptop Management



SCOPE AND METHODOLOGY

       Auditors evaluated the agency’s management of agency-owned
       laptop computers, including the effectiveness of NRC’s security
       policies for its laptop computers. This audit was initiated in
       response to a request from the agency’s Chief Information Officer
       and was included as a planned audit in the fiscal year 2008 Office
       of the Inspector General Annual Plan. Additionally, OIG used this
       audit to revisit issues related to laptop management and security
       that were identified in OIG audit report OIG-05-A-18, issued on
       September 22, 2005.

       The OIG audit team reviewed relevant Governmentwide criteria,
       including Federal requirements governing Government-owned or
       leased computers as noted in Federal Desktop Core Configuration
       and Executive Order 13103, Computer Software Piracy. National
       Institute of Standards and Technology best practices pertaining to
       laptop security and management were also considered. Auditors
       reviewed agency-specific guidance, including MDs 12.5, NRC
       Automated Information Security Program; 12.6, NRC Sensitive
       Unclassified Information Security Program; and 13.1, Property
       Management. Agency-specific best practices, including those listed
       on the Network Operations and Customer Service Branch Web site,
       and the Computer Security Awareness Self-Study were reviewed,
       as well as general prudent business practices. Previously issued
       OIG audit reports addressing issues related to laptop management
       and security management practices were also considered.

       Auditors interviewed designated agency IT coordinators and
       property custodians, an Information System Security Officer, and
       laptop owners in six NRC headquarters offices, four NRC regional
       offices, and two resident inspector sites.

       Auditors surveyed 49 agency-owned laptops selected from the
       2008 official agency inventory to determine (1) whether laptops are
       managed in accordance with Federal and agency standards and
       best practices, and (2) the consistency by which agency-owned
       laptops are managed and maintained across offices. To determine
       which laptops to survey, auditors requested a current official
       agencywide laptop inventory from the Office of Administration.
       Laptops were selected randomly from the list. When these laptops
       were unavailable, auditors selected alternative laptops from another
       randomly generated list of alternatives taken from the official
       agency laptop inventory. Various headquarters, regional, and
       resident inspector site laptops were included in the survey. The
       results of each survey were documented on an OIG-created


                                13
                                        Audit of NRC’s Laptop Management



checklist, which was developed in accordance with Federal and
agency requirements, standards, and best practices pertaining to
laptop management. Auditors analyzed the survey results to
determine whether NRC is appropriately and consistently managing
the laptops it owns.

This work was conducted from March 2008 through June 2008 in
accordance with generally accepted Government auditing
standards. Those standards require that the audit is planned and
performed with the objective of obtaining sufficient, appropriate
evidence to provide a reasonable basis for any findings and
conclusions based on the stated audit objectives. OIG believes
that the evidence obtained provides a reasonable basis for the
report findings and conclusions based on the audit objective. The
audit work was conducted by Beth Serepca, Team Leader;
Terri Cooper, Audit Manager; and Jaclyn Storch, Management
Analyst.




                         14
